           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      ADMINISTRATIVE COSTS
     CLAIMED BY THE FLORIDA
      DIVISION OF DISABILITY
         DETERMINATIONS

   September 2003   A-08-03-13006




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                            SOCIAL SECURITY

MEMORANDUM
Date:   September 25, 2003                                                        Refer To:

To:     Paul D. Barnes
        Regional Commissioner
         Atlanta

From:   Assistant Inspector General
         for Audit

Subject: Administrative Costs Claimed by the Florida Division of Disability Determinations
        (A-08-03-13006)


        OBJECTIVE
        The objectives of our audit were to (1) evaluate the Florida Division of Disability
        Determinations’ (FL-DDD) and the Florida Department of Health’s (FL-DH) internal
        controls over the accounting and reporting of administrative costs and (2) determine
        whether costs claimed were allowable and properly allocated and funds were properly
        drawn.

        BACKGROUND
        The Disability Insurance (DI) program was established in 1954 under Title II of the
        Social Security Act (Act). The program provides a benefit to wage earners and their
        families in the event the wage earner becomes disabled. The Supplemental Security
        Income (SSI) program was created as a result of the Social Security Amendments of
        1972 with an effective date of January 1, 1974. SSI (Title XVI of the Act) provides a
        nationally uniform program of income to financially needy individuals who are aged,
        blind, and/or disabled.

        The Social Security Administration (SSA) is primarily responsible for implementing
        policies governing the development of disability claims under the DI and SSI programs.
        Disability determinations under both DI and SSI are performed by Disability
        Determination Services (DDS) in each State or other responsible jurisdictions. Such
        determinations are required to be performed in accordance with Federal law and
        underlying regulations.1 In carrying out its obligation, each DDS is responsible for
        determining claimants' disabilities and ensuring adequate evidence is available to
        1
            42 U.S.C. § 421; 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 – Paul D. Barnes


support its determinations. To assist in making proper disability determinations, each
DDS is authorized by SSA to purchase such consultative medical examinations as
x-rays and laboratory tests to supplement evidence obtained from the claimants'
physicians or other treating sources.

SSA authorizes an annual budget to reimburse the DDS for 100 percent of allowable
expenditures.2 Once SSA approves the annual budget, the DDS withdraws Federal
funds through the Department of the Treasury's (Treasury) Automated Standard
Application for Payments system. The DDS is required to draw funds according to
Federal regulations3 and in accordance with intergovernmental agreements entered into
by Treasury and the States under the authority of the Cash Management Improvement
Act of 1990 (CMIA).4 At the end of each fiscal quarter, each DDS is required to submit
to SSA a State Agency Report of Obligations for SSA Disability Programs (Form
SSA-4513) to account for program disbursements and unliquidated obligations.5

FL-DDD is a component of the FL-DH. Indirect costs are allocated according to the
FL-DH Cost Allocation Plan, which is required to be approved by the Department of
Health and Human Services (HHS) on behalf of the Government. Before
January 1, 2000, FL-DDD was a component of the Florida Department of Labor
(FL-DL). The Division of Disability Determinations was transferred to FL-DH effective
January 1, 2000, and FL-DL ceased to exist on July 1, 2002.

SCOPE AND METHODOLOGY
We reviewed the administrative costs FL-DDD reported on its Form SSA-4513 for Fiscal
Years (FY) 1999 through 2001. For the periods reviewed, we obtained evidence to
evaluate recorded financial transactions and determine whether they are allowable
under Office of Management and Budget (OMB) Circular A-87, Cost Principles for State,
Local and Indian Tribal Governments, and appropriate, as defined by SSA’s Program
Operations Manual System (POMS).




2
    20 C.F.R. §§ 404.1626 and 416.1026.
3
    31 C.F.R. § 205.
4
    Pub. L. No. 101-453 (codified in scattered sections of 31 U.S.C.).
5
    SSA, POMS, DI 39506.815.
Page 3 – Paul D. Barnes


We also

•   reviewed applicable Federal regulations and pertinent parts of POMS, DI 39500,
    DDS Fiscal and Administrative Management, and other instructions pertaining to
    administrative costs incurred by FL-DDD and draw down of SSA funds covered by
    the CMIA;

•   interviewed staff at FL-DDD, FL-DH and SSA Region IV Center for Disability
    Operations;

•   reviewed State policies and procedures related to personnel, medical services, and
    all other non-personnel costs;

•   reviewed the Memorandum of Understanding between SSA and the FL-DH for non-
    SSA work;

•   evaluated and tested internal controls regarding accounting and financial reporting
    and cash management activities;

•   reviewed the reconciliation of official State accounting records to the administrative
    costs reported by FL-DDD on Form SSA-4513 for FYs 1999 through 2001;

•   examined the administrative expenditures (personnel, medical service, and all other
    non-personnel costs) incurred and claimed by FL-DDD for FYs 1999 through 2001
    on Form SSA-4513. We used statistical sampling to select documents to test for
    support of the medical service and all other non-personnel costs (see Appendix B);

•   examined the indirect costs claimed by FL-DDD for FYs 1999 through 2001 and the
    corresponding FL-DH Cost Allocation Plans;

•   compared the amount of SSA funds drawn to support program operations to the
    allowable expenditures reported on Form SSA-4513;

•   reviewed the State of Florida Auditor General’s Single Audit reports for the period
    July 1, 1998 through June 30, 2001; and

•   conducted a physical inventory test including (1) equipment items FL-DH purchased
    during our audit period and (2) selected computer hardware items SSA provided
    FL-DDD.

We performed work at FL-DDD offices in Tallahassee and Jacksonville, Florida, and
FL-DH offices in Tallahassee, Florida. We conducted our audit from June 2002 through
May 2003 in accordance with generally accepted government auditing standards.
Page 4 – Paul D. Barnes


RESULTS OF REVIEW
The FL-DH and FL-DDD had adequate internal controls over accounting and reporting
of administrative costs and draw downs. Our tests of the amounts FL-DH reported on
Forms SSA 4513 provided reasonable assurance FL-DH had correctly reported the
administrative costs ($207,863,679) FL-DDD incurred for disability determination
activities during our audit period (see Table 1 and Appendix C). Our tests of FL-DH’s
claimed costs also showed the sampled expenditures were allowable and allocable and
funds were properly drawn.

    Table 1: FL-DDD Administrative Cost Claimed for FYs 1999 through 2001
             Cost             Total              Total            Unliquidated
          Categories        Obligations      Disbursements        Obligations
      Personnel             $118,501,359       $118,501,138              $ 221
      Medical                 56,471,081         56,400,806               70,275
      Indirect                  8,034,396          8,034,373                  23
      All Other               24,856,843         24,855,306                1,537
      Total                 $207,863,679       $207,791,623              $72,056

CONCLUSION
We concluded FL-DH and FL-DDD complied with laws, regulations, policies and
procedures governing expenditures and obligations incurred for SSA’s disability
program for FYs 1999 through 2001. Specifically, we concluded FL-DH and FL-DDD
had adequate internal controls over accounting and reporting of administrative costs
and draw downs of SSA funds for the period under review. Administrative costs
claimed were allowable and properly allocated, and funds were properly drawn.




                                               S
                                               Steven L. Schaeffer
                                  Appendices
APPENDIX A – Acronyms

APPENDIX B – Sampling Methodology

APPENDIX C – Florida Division of Disability Determinations Reported Versus
             Allowed Obligations

APPENDIX D – Social Security Administration Comments

APPENDIX E – Florida Division of Disability Determinations’ Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
 Act        Social Security Act

 C.F.R.     Code of Federal Regulations

 CMIA       Cash Management Improvement Act

 DI         Disability Insurance

 DDS        Disability Determination Services

 FL-DL      Florida Department of Labor

 FL-DDD     Florida Division of Disability Determinations

 FL-DH      Florida Department of Health

 FY         Fiscal Year

 HHS        Department of Health and Human Services

 OIG        Office of the Inspector General

 OMB        Office of Management and Budget

 POMS       Program Operations Manual System

 SSA        Social Security Administration

 SSI        Supplemental Security Income

 Treasury   Department of the Treasury

 U.S.C.     United States Code
                                                                               Appendix B

Sampling Methodology
Our sampling methodology encompassed the four general areas of costs as reported on
Form SSA-4513: (1) Personnel, (2) Medical, (3) Indirect, and (4) All Other Non-
personnel Costs. We obtained computerized data from the Florida Division of Disability
Determinations (FL-DDD) for Fiscal Years (FY) 1999 through 2001 for use in statistical
sampling. After selecting and reviewing randomly selected samples, we did not identify
errors we felt warranted audit projection.

Personnel Costs

We judgmentally sampled seven employees and three contractors from one pay period
in each of the FYs 1999 through 2001. We tested FL-DDD’s payroll records to ensure it
correctly paid employees and adequately documented these payments.

Medical Costs

We sampled 150 items (50 items from each FY) using a stratified random sample. We
stratified medical costs into Medical Evidence of Record and Consultative Examinations
and selected more consultative examination invoices because these costs represented
74 percent of all medical costs.

Indirect Costs

We reviewed the indirect cost base and computations used to determine those costs for
reimbursement purposes. Our objective was to ensure the Social Security
Administration reimbursed FL-DDD in compliance with the State Cost Allocation Plan.
We reviewed the spreadsheets and traced the base amounts back to Form SSA-4513
for the indirect cost computation components.

All Other Non-personnel Costs

We selected a stratified random sample of 1621 items (54 expenditures from each FY)
from All Other Non-personnel Costs. We stratified All Other Non-personnel Costs into
seven cost categories: (1) Care and Subsistence, (2) Staff Travel, (3) Communications,
(4) Equipment and Capital Outlays, (5) Independent Contractors, (6) Miscellaneous, and
(7) Occupancy. We selected a stratified random sample of 50 items from each FY
based on the percentage of costs in each category (excluding occupancy) to total costs.
We also selected a judgmental sample of occupancy expenditures from each FY for the
Occupancy category. We did not identify errors we felt warranted audit projection.

1
 We used four replacements to obtain the units needed to complete our desired sample. This was
necessary because FL-DDD had problems retrieving archived documentation.
                                                                                      Appendix C

       FLORIDA DIVISION OF DISABILITY DETERMINATIONS
          REPORTED VERSUS ALLOWED OBLIGATIONS

Fiscal Year 2001
                                                             Disbursements
                               Personnel       Medical           Indirect     All Other        Total

As Reported by the FL-DDD      $41,389,684     $19,639,290       $3,571,704    $7,883,999     $72,484,677

 Unliquidated Obligations              221         70,275               23          1,537          72,056


Allowed as a Result of Audit   $41,389,905     $19,709,565       $3,571,727    $7,885,536     $72,556,733


Fiscal Year 2000
                                                             Disbursements
                               Personnel       Medical           Indirect     All Other        Total

As Reported by the FL-DDD      $39,509,823     $18,810,744       $2,275,076    $8,598,979     $69,194,622

 Unliquidated Obligations                  0             0               0                0            0


Allowed as a Result of Audit   $39,509,823     $18,810,744       $2,275,076    $8,598,979     $69,194,622




Fiscal Year 1999
                                                             Disbursements
                               Personnel       Medical           Indirect     All Other        Total

As Reported by the FL-DDD      $37,601,631     $17,950,772       $2,187,593    $8,372,328     $66,112,324

 Unliquidated Obligations                  0             0               0                0            0


Allowed as a Result of Audit   $37,601,631     $17,950,772       $2,187,593    $8,372,328     $66,112,324
                                   Appendix D

Social Security Administration Comments




                     D-1
                                       SOCIAL SECURITY
MEMORANDUM

Date:    September 11, 2003                                    Refer To: K Killam 2-5727

To:      Assistant Inspector General for Audit

From:    Regional Commissioner
         Atlanta

Subject: Florida State DDS Audit -- RESPONSE to Your Memorandum (undated)

         Thank you for the opportunity to comment on the validity of the facts and
         reasonableness of the recommendations presented in your report of the audit
         (# A-08-03-13006) on the Administrative Costs Claimed by the Florida Disability
         Determination Services (DDS).

         There were no recommendations made from this audit because the auditors
         concluded that the Florida Department of Health and the Florida DDS complied
         with laws, regulations, policies and procedures governing expenditures and
         obligations incurred for SSA’s disability program for Fiscal Years 1999 through
         2001.

         Please contact me if I can be of further assistance. Staff questions should be
         referred to Karen Killam (404) 562-5727 or Josie Irwin at (404) 562-1407.


                                               Paul D. Barnes

        Attachments

        cc:    Mr. James M. McHargue, Director, Office of Disability Determinations
               Ms. Avis Payne, Chief of Administrative Services, DDS


        [SSA also provided a technical comment which has been addressed in this report.]




                                                  D-2
                                       Appendix E

Florida Division of Disability Determinations’
Comments




                        E-1
E-2
                                                                        Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
    Walter Bayer, Director, (215) 597-4080

    Jeff Pounds, Deputy Director, (205) 801-1606

Acknowledgments
In addition to those named above:

    Kathy Youngblood, Senior Auditor

    Ellen Justice, Auditor

    Theresa Roberts, Auditor

    Kimberly Beauchamp, Writer/Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-08-03-13006.
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General

                                       Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                             Office of Executive Operations

The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
the Agency, as well as conducting employee investigations within OIG. Finally, OEO
administers OIG’s public affairs, media, and interagency activities and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.

                                  Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                           Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program
